           Smithsonian Institution
          Office of the Inspector General


In Brief                           Collections Stewardship at the Cooper-Hewitt, National
                                   Design Museum
                                   Report Number A-11-02, September 12, 2011
                                                                                                                        


Why We Did This Audit
                                   What We Found
We conducted an audit of
collections stewardship at the     We found that Cooper-Hewitt’s controls over inventory, physical security,
Cooper-Hewitt, National            and preservation were generally adequate. We also identified some
Design Museum to assess            opportunities to strengthen the management of inventory and security.
whether (1) physical security is   Specifically, the Museum needs to develop a more detailed plan to ensure
adequate to safeguard the          records are updated and needs to ensure proper segregation of duties
collections, (2) inventory         within its inventory system. We also found that the Office of Protection
controls are in place and          Services (OPS) needs to provide more oversight of operations at the
working adequately, and (3)        Newark facility.
controls over the preservation
of collections are adequate.       We also found that Cooper-Hewitt has demonstrated good inventory
                                   procedures, but did not ensure its electronic collections records stored in
                                   the collections information system, The Museum System (TMS), were
What We Recommended                updated. If museum personnel find anomalies during the collections
                                   inventory, such as objects on the shelves without corresponding collections
We made five                       records, or records without corresponding objects, they need to research
recommendations to ensure          and resolve the anomalies in their records so that the records accurately
that Cooper-Hewitt:                reflect the status of the objects. Although the Museum had been
(1) reconciles the TMS,            inventorying its collections, we observed the staff had not been resolving
accession, and object records;     differences found between records and objects.
(2) identifies incomplete
records in TMS and update          Although overall physical security is adequate to safeguard the collections,
them; (3) establishes internal     some aspects of security need strengthening. Our tests of security devices
controls within the combined       found that they were generally adequate. We also observed that Cooper-
storage area to ensure             Hewitt is upgrading security as part of its redesign of the existing buildings
individuals only have access to    in New York. Further, OPS provided input and oversight of the security
collections that are a part of     plans for the Mansion and Miller-Fox townhouses. However, at the
their official duties; (4) OPS     Newark facility, access control to the combined collections storage area
Operations Division obtains        and OPS oversight of Newark operations needs strengthening. In addition,
and reviews the security           security reporting could be improved. Finally, Cooper-Hewitt needs to
reports and oversees               further segregate the duties of the collections database administrator.
management of keys at the
Newark facility; and (5) staff     We concluded that Cooper-Hewitt controls over preservation of its
members with unrestricted          collections were adequate. It has conducted surveys on the condition of the
access to collections not have     collections, obtained new shelving and storage for the collections, created a
the ability to delete TMS          packing system, closely monitored environmental conditions, and
records.                           developed a detailed disaster plan.

Management generally
concurred with our findings
and recommendations and has
planned corrective actions to      For additional information or a copy of the full report, contact the Office of the
resolve the recommendations.       Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
          Smithsonian Institution

          Office of the Inspector General



  Date    September 12,2011

    To    Bill Moggridge, Director, Cooper-Hewitt, National Design Museum
          William Lynch, Director, Office of Protection Services

     cc   Richard Kurin, Under Secretary for History, Art, and Culture
          Scott Miller, Deputy Under Secretary for Collections and Interdisciplinary Support
          William G. Tompkins, National Collections Coordinator, National Collections Program
          Bruce Kendall, Director, Office of Facilities Engineering and Operations
          Caroline Baumann, Deputy Director, Cooper-Hewitt, National Design Museum

 From     lS} ~~~~n, Inspector General
Subject   Audit of Collections Stewardship at the Cooper-Hewitt, National Design Museum,
          Number A-11-02

          This report presents the results of our audit of collections stewardship at the Cooper­
          Hewitt, National Design Museum (Cooper-Hewitt). It is one in our series of audits
          covering collections at the Smithsonian. The Office of the Inspector General (OIG)
          initiated this audit to examine collections management, which is essential for
          safeguarding the collections for public and scholarly use and for reducing the risk ofloss
          or theft. Earlier audits covered the National Museum of Natural History (NMNH) (A­
          05-06, September 29, 2006), the National Air and Space Museum (NASM) (A-09-04,
          March 17,2010), and the National Museum of American History (NMAH) (A-10-03-1,
          February 8, 201l).

          Collections are at the core of the Smithsonian. The Smithsonian Strategic Plan for fiscal
          years 2010-2015 states:

                The collections are fundamental to our work and to that of countless
                scholars and many federal agencies; it is our responsibility to preserve
                them for future generations. To ensure they remain available, we will
                improve collections storage and management, substantially expand
                access to collections through digital technologies, and build
                public/private partnerships that strategically enhance collections care.

          Based on the common patterns in our prior reports addressing collections care, security,
          and management, the Institution's Board of Regents has expressed concern that the
          Smithsonian has not put enough focus on protecting its collections. As a result, the
          Secretary tasked the Deputy Under Secretary for Collections and Interdisciplinary
          Support to catalogue the collections challenges facing the museums along with the
          remedial actions undertaken to date and planned. The Deputy Secretary will report to the
          Board of Regents on the results at future meetings of the Audit and Review Committee.



          MRC 524
          PO Box 37012
          Washington DC 20013·0712
          202.633.7050 Telephone
          202.633.7079 Fax
Our objectives in the audit were to assess whether (1) physical security is adequate to
safeguard the collections, (2) inventory controls are in place and working adequately, and
(3) controls over the preservation of collections are adequate. We describe in detail our
audit scope and methodology in Appendix A.

RESULTS IN BRIEF
Our prior audit reports on NMNH, NASM, and NMAH found serious weaknesses in
inventory and security controls. Although we identified areas where Cooper-Hewitt
could make some improvements, we found that Cooper-Hewitt’s controls over inventory,
physical security, and preservation were generally adequate. We also identified some
opportunities to strengthen the management of inventory and security. Specifically, the
Museum needs to develop a plan to ensure records are updated and needs to ensure
proper segregation of duties within its inventory system. We also found that the Office of
Protection Services (OPS) needs to provide more oversight of operations at the Newark
facility.

Cooper-Hewitt invested considerable time and resources developing inventory controls
by conducting a comprehensive inventory of its entire collection; however, electronic
records are incomplete and require reconciliation. If museum personnel found anomalies
during their collections inventory, such as objects on the shelves without corresponding
collections records, or records without corresponding objects, they assigned objects a
temporary tracking number to continue the inventory with the intent to go back and
reconcile the information in the future. Although reconciliation cannot be accomplished
until the collections move to permanent storage, Cooper-Hewitt needs to develop a plan
to ensure the information is updated in a timely manner.

Although overall physical security is adequate to safeguard the collections, some aspects
of security need strengthening. Our tests of security devices found that they were
generally adequate. We also observed that Cooper-Hewitt is upgrading security as part of
its redesign of the existing buildings in New York. Further, OPS provided input and
oversight of the security plans for the Mansion and Miller-Fox townhouses. However, at
the Newark facility, access control to the combined collections storage area and OPS
oversight of Newark operations need strengthening. In addition, security reporting could
be improved. Finally, Cooper-Hewitt needs to further segregate the duties of the
collections database administrator.

We concluded that Cooper-Hewitt’s controls over preservation of its collections were
adequate. The Museum has conducted surveys on the condition of the collections,
obtained new shelving and storage for the collections, created a storage system, closely
monitored environmental conditions, and developed detailed disaster plans. Although it
cannot address all collections preservation issues, overall the Museum is making good use
of limited resources.

We recommended that Cooper-Hewitt strengthen physical controls over access at the
Cooper-Hewitt’s Newark facility by controlling access to combined collections storage
areas and ensuring that OPS obtains and reviews security reports and oversees key
management. Further, we recommended that Cooper-Hewitt prevent staff members from
having unrestricted access to both collection objects and collections records. We also
recommended that it improve inventory controls for its collections by reconciling

                                            2

electronic collections records to its accession and object records, and by identifying and
updating incomplete collections records. Given the Museum’s adequate controls over
collections preservation, we did not make recommendations in this area.

BACKGROUND
The Cooper-Hewitt, National Design Museum

The Museum was founded in 1897 by Amy, Eleanor, and Sarah Hewitt, granddaughters of
industrialist Peter Cooper, as part of The Cooper Union for the Advancement of Science
and Art. Cooper-Hewitt has operated as a branch of the Smithsonian since 1967. In 1976
Cooper-Hewitt opened in the former home (mansion) of industrial magnate Andrew
Carnegie on Fifth Avenue in New York City.

Cooper-Hewitt is devoted to historic and contemporary design. The Museum presents
perspectives on the impact of design on daily life through active educational and
curatorial programming. The Museum collections include approximately 226,817 design
       1
objects and a design library. Its exhibitions, educational programs, and on-site master's
program explore the process of design, both historic and contemporary.

The Museum is currently redesigning the mansion’s interior to increase exhibition space.
This reconstruction project closed the mansion for approximately two years, beginning in
mid-2011. The mansion’s campus also includes two historic townhouses, the Miller and
Fox buildings (Miller-Fox). Cooper-Hewitt plans to reopen Miller-Fox after completion
of a major reconstruction in late 2011 with a new library facility to include lecture rooms
as well as curatorial and administrative offices.

The Museum has also leased long-term storage space in Newark, New Jersey to house the
bulk of its permanent collection as well as provide the Museum with additional registrar
workspace, collections study, photography, and conservation lab space. At the time of
our audit, most of Cooper-Hewitt’s collections were placed in temporary storage awaiting
the completion of renovations to the permanent storage space. In preparation for the
renovations and the move of the collections to new storage space, Cooper-Hewitt
recognized the need for a comprehensive inventory of their entire collection.

At Cooper-Hewitt, care and accountability for the collections is the responsibility of the
Curatorial Director and the Director’s staff. Among other duties, the Director is
responsible for overseeing the Registrar’s Office, the Conservation Office, and four
Curatorial Departments: Drawings, Prints, and Graphic Design; Product Design and
Decorative Arts; Textiles; and Wallcoverings. The Registrar’s Office is responsible for the
legal documentation of accessioned objects and the movement of loaned objects (both
incoming and outgoing loans) and has access to all collections. The Registrar staff
maintains a degree of independence from the curatorial staff, since they set the collections
management policy and ensure that it is being followed. The Conservation Office is
responsible for the preservation of all collections, which includes determining the



1
  This number does not include those objects managed by the Cooper-Hewitt Library, as they were excluded
from our scope.

                                                   3

appropriate standards for the collections’ storage environment, housing, material and
techniques. Curators are responsible for the physical care of collections, which involves
balancing collections care with access to the collections.

Cooper-Hewitt’s Collecting Divisions

The collections encompass the holdings of the Museum’s four curatorial departments:
Drawings, Print, and Graphic Design; Product Design and Decorative Arts; Textiles; and
Wallcoverings.




                                 Drawings, Prints, and Graphic Design (DPGD)

                                 The Drawings, Prints, and Graphic Design collection is
                                 home to approximately 160,000 works of art dating from
                                 the Renaissance to the present related to the history of
                                 European and American art and design. The collection
                                 includes designs for architecture, decorative arts,
                                 gardens, interiors, ornament, jewelry, theater, textiles,
                                 graphic and industrial design, as well as the fine arts.
     Van Gogh, Cooper-Hewitt,
      National Design Museum




Product Design and Decorative Arts (PDDA)

Cooper-Hewitt’s department of Product Design and
Decorative Arts is home to approximately 40,000
                                        st
objects dating from antiquity to the 21 century,
which form a resource for decorative art and design.
International in scope, the collection contains a
diverse assortment of objects, reflecting a vast range
of historical styles and design movements. Categories
of objects within the collections include Ceramics,
Furniture, Metalwork, Lighting, Glass, Jewelry,             Silver Charger, Adolf Gaap, Cooper-
Architectural Elements, and Industrial Design.                Hewitt, National Design Museum




                                             4

                                    Textiles

                                    The Textiles collection contains more than 30,000 pieces
                                    representing a wide range of woven and non-woven
                                    techniques. Extending from ancient to contemporary
                                    examples, the earliest pieces in the collection are from
                                    Han Dynasty China (206 BC-AD 221).
  Embroidery and Stitching Panel,
    Early 17th Century, Cooper-
  Hewitt, National Design Museum




Wallcoverings

Cooper-Hewitt’s Wallcoverings department
contains a large and varied collection of
wallpaper, with more than 10,000 pieces from
the 17th century through today and represents
many countries of origin. The collection
includes individual wallpaper pieces, rolls,
sample books, advertisements, and printing
tools that have been collected for their historic    Winnie the Pooh, Wallcoverings, Cooper-
associations, as design inspiration, or as              Hewitt, National Design Museum
examples of printed material.

Cooper-Hewitt Security

OPS is responsible for the security of staff, visitors, and collections Institution-wide. OPS
is a branch of the Office of Facilities Engineering and Operations (OFEO). OPS provides
protection and security services at Smithsonian facilities on and near the National Mall in
Washington, D.C., New York City, and Panama. Each building or compound has a
Security Manager who is in charge of overseeing security for that location. The Security
Manager reports to the Area Security Manager, who is responsible for overseeing multiple
facilities in a geographic area. The Technical Security Division (TSD) of OPS provides
technical assistance and advisory services to SI bureaus, offices, and facilities, as well as
maintains and repairs all technical security equipment, such as door access-card readers,
cameras, and motion detectors, throughout the Institution. TSD also provides security
design and construction support.

Smithsonian Collections Management Policy and Implementation Manual

Smithsonian Directive (SD) 600, Collection Management Policy, states that effective
collections management requires a continuous inventory system to support decisions
regarding collections use, growth, storage, and security. Full inventory control requires
creating and maintaining reliable information about the identification, location, and
accessibility of collection items. Inventory is a critical component of ongoing collections
documentation.

                                               5

The SD 600 Implementation Manual requires that a collecting unit accurately and
comprehensively document its collections. It also requires collecting units to create and
maintain accurate and current inventory records that will identify, locate, and give an
account of each object’s condition to ensure maximum accessibility consistent with its
security. The manual states that collecting units must clearly establish lines of authority
and responsibility for all collections activities and must emphasize the maintenance of
complete, written records regarding all collections-related decisions and activities.

Accordingly, SD 600 and the Implementation Manual require each unit to implement a
continuous inventory system for (1) conducting, supervising, and approving cyclical
inventories and reconciliation of collection records; (2) implementing a written cyclical
inventory plan that is reviewed by all individuals who will conduct the inventory and
approved by the Museum director; and (3) ensuring separation of duties and
implementation of other internal controls to prevent the unauthorized removal of
collection objects.

Cooper-Hewitt Collections Management Policy (CMP)

According to Cooper-Hewitt’s CMP, the Registrar’s Office is responsible for maintaining
and making available up-to-date records that document the history and all activities
affecting objects in Cooper-Hewitt’s custody, along with their status. The Registrar’s
Office is responsible for creating and maintaining records for each object and maintaining
incoming and outgoing loan records; the appropriate curatorial department is responsible
for cataloguing each object and maintaining objects research files; and the conservation
department is responsible for keeping accurate records of condition and treatment. All
records must be created in an accurate, complete, and timely manner and updated
regularly.

Cooper-Hewitt Collections Management Software – The Museum System (TMS)

Cooper-Hewitt has implemented The Museum System (TMS) as their collections
information system. The Museum is one of the many Smithsonian art museums that have
implemented TMS and is on the Art Collections Information System committee (ArtCIS).
The ArtCIS facilitates collaboration between units and encourages the sharing of
information, best practices and solutions to problems, and standardization of procedures
and terminology.

RESULTS OF AUDIT
We found that Cooper-Hewitt’s controls over inventory, physical security, and
preservation were generally adequate. We did identify some opportunities to strengthen
the management of inventory and security. Specifically, the Museum needs to develop a
plan to ensure records are updated and effect proper segregation of duties within its
inventory system. We also found that OPS needs to provide more oversight of operations
at the Newark facility.




                                              6

Inventory Controls are Adequate but Could be Improved

Background

Beginning in 2007, in anticipation of closing for its redesign, Cooper-Hewitt began a 100
percent inventory of its collections. Museum staff went shelf by shelf and verified each
object’s information in TMS. They found some objects that were neither properly labeled
nor adequately documented in TMS. In these instances, Museum staff assigned a
temporary tracking number to the object so they could complete the inventory in time for
the move, with the intent to go back at a later date to research the objects further and
reconcile the information. Reconciling the information in TMS requires the staff to
identify accession documentation associated with the object and then verify whether the
Museum had assigned the object an accession number. To date, the Museum has
inventoried PDDA, Textiles, and Wallcoverings and is currently inventorying DPGD.



                                     As a part of the inventory, Cooper-Hewitt documented
                                     storage, condition, and conservation issues of the
                                     collections. With the move of the collections
                                     imminent, the Museum packed the objects to prepare
                                     them for transport to temporary storage. Once objects
                                     had been inventoried, the boxes were marked to
                                     indicate key information, such as whether the
                                     inventory was completed, the pertinent department,
                                     and where they were going to be stored.



    Inventory Labeling System used
        for the Collection Move


Testing Results

To test the accuracy of the inventory records and to confirm whether objects could be
located, we selected a sample of objects from each of the four curatorial departments. In
total, we sampled 369 objects at the Museum and at offsite storage locations. Our results,
summarized in Appendix C, show that we were able to locate 352, or 95 percent, of the
sample. We could not locate 16, or 4 percent, of the sample. The objects we could not
locate were not considered priority collection objects; they consisted of various types of
prints such as drawings, a greeting card, and a lithograph. We found that one object had
been deaccessioned from the Museum’s collection, and Museum personnel updated the
inventory records based on our audit work.

In addition to our sample from all four departments, we also attempted to review 100%
of the objects that the Museum had identified as priority - those objects of the greatest
significance to the collection in terms of their importance and uniqueness to the history
of design, cultural significance, and the Smithsonian’s mission. The Museum’s DPGD
priority objects include the drawing Sand Barges Moored at the Quay by Vincent Van
Gogh and a rare drawing by Michelangelo. The Textiles department’s priority objects
                                              7

include a bonnet and mittens dating back to the year 300 BC. PDDA priority objects
include vases and a lamp by Louis Comfort Tiffany as well as many silver-gilt pieces. The
Wallcoverings priority objects include various 19th century French floral compositions
and scenic wallpapers, such as Views of Italy and El Dorado. Since many of these objects
were packed for temporary storage, we could not view them all. We verified all of the
accessible priority objects except for one piece of an object that was identified as missing
by Cooper-Hewitt prior to our audit. Cooper-Hewitt staff believes this was a
recordkeeping error but we could not confirm their belief.

Inventory Records are Incomplete

Despite the Museum having conducted a comprehensive inventory of its collections, TMS
records are incomplete and require reconciliation.

We found that in many cases a portion
                                                   Blank Description Field by Department
of TMS collection records did not
                                                                    WC
contain identifying information such
                                                                    2%
as description. In our analysis of the
226,817 records (Appendix C, table 2),                        Textiles
we found that approximately 73                                  10%
                                                           PDDA
percent, or 166,648 records, had blank                      13%
“Description” fields. Of these records
75 percent were for objects in the
Drawings, Prints, and Graphic Design                                     DPGD
Division and 13 percent were from                                         75%
Product Design and Decorative Arts.
Ten percent were from Textiles and 2
percent were from Wallcoverings.

Cooper-Hewitt staff assigned a temporary tracking number to many objects they
discovered during the inventory but that they could not verify in TMS at the time. The
Museum assigned 11,315 objects temporary tracking numbers based on the most recent
inventory (Appendix C, table 3). Once the move of the collections is complete, staff will
need to research accession records and reconcile the objects’ information in TMS.

Performing reconciliations of the TMS data, accession records, and the object is part of
the inventory process and an essential step for ensuring the accuracy of all the Museum’s
collections records. Cooper-Hewitt’s records are incomplete because the Museum has
not converted all of its paper records into TMS, and reconciliation of the inventory
cannot be performed until the move of its collections to permanent storage. However,
Cooper-Hewitt staff expressed concern that because they have limited resources, they
would not be able to properly reconcile the inventory data after the collection was moved
to permanent storage. The Museum’s lack of a dedicated Collections Manager in three of
the four collecting departments compounds this issue.

Incomplete TMS collections data leaves collections objects vulnerable to loss or theft,
diminishes accountability, and reduces the scholarly value of the objects. It also adversely
affects Cooper-Hewitt’s ability to fulfill the mission of the Smithsonian by not having the
objects accessible for exhibit, research, and public programming purposes.


                                              8

Incomplete recordkeeping creates the appearance that objects are missing when in fact the
objects may have actually been deaccessioned or assigned a temporary tracking number.
The temporary tracking numbers create the potential for duplicate records as does the
assignment of accession numbers to missing objects. Such practices also reduce the
usefulness of records to inventory the collections and increase the risk that objects could
be lost or stolen without detection.

At the time of our audit, Cooper-Hewitt categorized 10,428, or 5 percent, of its objects as
missing in TMS. Management believes that a portion of these missing objects are archives
and study materials, not accessioned objects. Cooper-Hewitt staff believes that the 11,315
objects assigned temporary tracking numbers are in fact the objects labeled as missing in
the system. We could not verify their assertion without Cooper-Hewitt performing a
reconciliation.

Our inventory testing produced similar results (Appendix C, table 1); out of the 369
objects we tested, 16, or 4 percent, of the objects could not be found. We believe this rate
is reasonable based on our audit sample. However, we believe that Cooper-Hewitt should
strive for 100 percent accountability for its collections. Of the 16 objects we could not
locate during the testing, Cooper-Hewitt provided additional information indicating that
the objects may not actually be missing, but that instead their recordkeeping was
inaccurate. The recordkeeping errors may be the result of a lack of reconciliation from
past inventories, the conversion of the collections data to TMS in 1998, or temporary
tracking numbers.

Recommendations:

We recommend that the Director of Cooper-Hewitt, develop a plan to:

       1. Reconcile the TMS, accession, and object records.

       2. Identify incomplete records in TMS and update them.

Physical Security to Safeguard the Collections is Adequate but Could be Improved

Background

Security of the collections is the responsibility of both the Museum and OPS. OPS is
organized into separate divisions. The Operations Division is generally responsible for
day-to-day operations and emergency situations. The TSD provides security design and
construction support for all Smithsonian facilities.

Newark

Since the New York facilities were in transition, we focused our testing of security devices
at the Newark facility. Based on our testing, we found the physical security at the Newark
facility was generally adequate to safeguard the collections; however, we found weaknesses
in the design of some security procedures. Collections were not at risk in the space
because, at the time of our testing, they had not been moved into the permanent storage
space. The weaknesses we identified involved two controls in particular: access within the
combined storage area, and oversight by OPS’ Operations Division. We also have

                                             9

concerns regarding the reporting of security activity in Newark. Some of the security
devices failed our testing. OPS TSD is actively addressing those devices.

Combined Collections Storage Space

Although the Museum has planned well for its overall physical security to safeguard
collections, at the time of our audit, some internal controls were not planned for within
the Newark collections storage space. The current plans are to co-locate approximately 70
percent of the collections from all four departments in one space. Four separate groups of
people representing each collecting department oversee the collections. Based on the
configuration of the space, once a person enters the space, he or she has immediate access
to all collections areas regardless of need.

The SD 600 Collections Management Policy requires each collecting unit to establish
authority and assign responsibility to control, monitor, document, and provide
collections and collections information access; incorporate applicable guidelines for
access set forth in the SD 600 Implementation Manual; and establish policies, criteria, and
procedures for permitting responsible access to physical collections and collections
information. The SD 600 Collections Management Implementation Manual further states
that stewardship involves policy and planning documents that address the needs of
existing collections and future collecting activities. This manual also requires collecting
units to secure all collections in controlled areas where access is monitored and
documented.

The Draft Smithsonian’s Collection Space Security Standards state that access to collections
space should be limited to the minimum number of staff whose official duties require
frequent and regular access. Collections management staff should consider separating
collections spaces by department or access requirements. These standards optimize the
available space to reduce unnecessary access to the space.

Prior to the move to Newark, the Museum stored each of its collections in separate
storage spaces that limited access to only those personnel assigned to work on the
collections. That the new collection storage space at Newark consists of one space for all
four departmental collections introduces a new risk: individuals granted access to this
space also have access to collections beyond their official duties. At the time of our audit,
Museum management had not planned how to mitigate the risk posed by this
arrangement.

The lack of access controls within Cooper-Hewitt’s combined collections storage in
Newark needs to be addressed before the collection is moved into the space to lower the
risk of unauthorized access, which creates the opportunity for undetected loss, damage, or
theft of objects.

OPS - Operational Oversight at Newark

Although OPS Operations Division was involved in the planning of security at Newark,
we identified potential weaknesses in operational oversight at that facility. We are aware
that the Museum is still developing its policies and procedures for operations there, but
believe that the OPS Operations Division could provide valuable input into this process.


                                              10

According to the OPS Staff Security Handbook, OPS determines security policy and
standards and provides security planning and protection for facilities and areas under
their control, including Smithsonian owned and leased facilities in the New York City
metropolitan area.

OPS’ Staff Security Handbook says that for those facilities where OPS does not have direct
security control, OPS provides:

   	 Risk assessments and recommendations for risk-mitigating measures

   	 Security-related operational and technical guidance through special consultation
      or facility planning projects

We noted that under the lease for the facilities and the draft security procedures at the
Newark facility, the landlord will provide monthly security reports to the Museum. These
reports will contain valuable information regarding collection access and alarm activity
and should be closely monitored by OPS Operations staff. During our audit, OPS
Operations staff could not explain to us how they were going to review and analyze these
reports.

Generally, key management activities such as issuance, storage, retrieval, and control of
keys are responsibilities of OPS. However, Cooper-Hewitt assigned key management
solely to the Registrar staff at the Newark facility. Since approximately 70 percent of
Cooper-Hewitt’s collections will be stored in the Newark facility, we believe OPS should
have a role in the oversight of key management at Newark. We have noted in prior audits
of other Smithsonian museums that poor coordination between OPS and museum staff
resulted in mismanagement of keys, diminishing collections security.

Testing of devices – Newark

Smithsonian security design criteria outline the standards for specific security devices
based on the purpose and use of the space. For leased facilities, OPS should determine
the appropriate level of security for each space through consultation with the Museum.
Security levels should reflect the client’s mission, tenant mix, size of space requirements,
number of employees, and use of space. Based on an assessment of the space, OPS can
provide the Museum with an appropriate security design.

TSD designed the security device layout at Newark, which consists of 96 devices to
mitigate the collection’s security risk. With the assistance of OPS, we attempted to test all
96 security devices in Newark; however, we found three inaccessible. Of those devices
that we could access, 87 passed and 6 glass break sensors failed testing. Since our testing,
OPS reviewed the product information on the glass break sensors, enabling them to
properly test the devices. They found that all the sensors were operational.

Mansion and Miller-Fox

The Museum’s Manhattan facilities are in various stages of redesign and reconstruction
and therefore the security layout at the Mansion and Miller-Fox townhouses will
ultimately differ dramatically from the current configuration. Consequently, we chose to
review OPS’ redesign of security. We found OPS’ TSD was actively involved by reviewing

                                             11

and providing feedback into the design of the security layout. We reviewed security plans
for compliance with OPS standards and found them to be generally adequate if
implemented as planned.

Recommendations:

To prevent unrestricted access to collections for any personnel who gain entrance to the
combined storage space in Newark, we recommend that the Director of Cooper-Hewitt:

       3.	 Establish internal controls within the combined storage area to ensure
           individuals only have access to collections that are a part of their official
           duties.

To strengthen physical controls over access to Cooper-Hewitt’s Newark facility, we
recommend that the Director of OPS work with the Director of Cooper-Hewitt to:

       4.	 Ensure that the OPS Operations Division at Cooper-Hewitt obtains and
           reviews the security reports and oversees management of keys at the Newark
           facility.

Conflicting Duties

A traditional control technique in inventory management is to separate the
responsibilities for managing objects and maintaining object records. Separating these
duties minimizes the risk of records being adjusted to mask theft or loss. SD 600 states
that each collecting unit must ensure adequate separation of duties and other internal
controls to minimize the possible unauthorized removal of collection items and
corresponding records. The SD 600 Implementation Manual further explains that there
may be different levels of separation based on the value of the collections; while high-
value collections may need full separation of duties, other collections may only need an
audit trail to track changes. It also states that where separation of duties is not possible,
other compensating controls should be implemented to minimize any risks.

Cooper-Hewitt is not ensuring that there is adequate separation of duties between
employees with access to collections and access to object records. We identified five
employees with physical access to collection storage areas who also had TMS privileges
that allowed them to alter and delete object records. During the course of the audit, the
Museum restricted the TMS privileges of four of the five individuals. However, one
member of the Registrar’s Office still has unrestricted access to collections.

This condition occurred because Museum management assigned System Administrator
responsibilities to the registrar staff. The Registrar Office’s responsibilities require that
they have access to collection records. We believe that since recordkeeping is the
registrars’ primary function, it is a common practice to allow a registrar to perform the
function of System Administrator. However, compensating controls need to be in place
to limit the person’s access to objects. Without proper separation of duties it would be
possible for an employee to improperly remove an object and then mask the theft by
altering or deleting the object’s audit trail.



                                              12

Recommendation

To prevent staff from having unrestricted access to both objects and object records, we
recommend that the Director, Cooper-Hewitt:

       5.	 Ensure that Cooper-Hewitt staff members with unrestricted access to
           collections not have the ability to delete TMS records.

Controls over the Preservation of Collections are Adequate

Background

The SD 600 Collection Management Policy states that preservation is the protection and
stabilization of collections, as well as their associated information, through a coordinated
set of activities aimed at minimizing chemical, physical, and biological deterioration and
damage, and preventing loss of intellectual, aesthetic, and monetary value. It also states
that the Smithsonian shall provide the necessary preservation, care, protection, and
security for all collections acquired, borrowed, and in the custody of the Institution,
including their associated information.

In reviewing preservation at Cooper-Hewitt, we relied on A Public Trust at Risk: The
Heritage Health Index Report on the State of America’s Collections, published in 2005. This
comprehensive survey conducted on the condition and preservation needs of all United
States collections held in public trust consisted of responses from 3,239 museums and
institutions nationwide. Cooper-Hewitt participated in this survey. The Heritage Health
Index data pointed out four general, important collections stewardship needs:
environmental and storage conditions, emergency planning, staffing, and funding. The
Heritage Health Index states that if these needs are not addressed, collections are at higher
risk for damage or loss.

We concluded that Cooper-Hewitt has designed adequate controls over the preservation
of its collections. Museum staff created a packing system, obtained new shelving and
storage for the collections, sought out funding opportunities, conducted surveys on the
condition of their collections, closely monitored environmental conditions, and
developed detailed disaster plans. All these efforts exemplify good controls. Although the
Museum cannot address all collections preservation issues, overall the Museum is making
good use of its limited resources.

Cooper-Hewitt Preservation Efforts

Environmental Controls - At Cooper-Hewitt the conservation staff monitors temperature
and humidity levels to ensure levels are within an acceptable range to preserve collections.
Because deterioration of objects results from adverse environmental conditions,
monitoring and controlling the environment are key factors to ensure the long term
preservation of Museum property.



                                             13

Storage - Good collection storage is a major component of a preventive conservation
program to preserve the useum collections. A well planned and organized storage space
reduces the risk of damage to the objects and improves access to collections. Cooper-
Hewitt has obtained new shelving and prepared a detailed storage plan for objects in the
Newark space.




                                          Shelving –Cooper-Hewitt installed compact
                                          shelving in the new storage facility in New Jersey
                                          to maximize storage space.




         Compact Shelving, Newark


Storage system – Conservation staff designed a
storage system that allows access to the objects by
handling the casing rather than the object itself and
thus reduces the risk of damage to the object.
According to the Conservation management, the
storage system for parts of the collection has been
designed so that the Museum can use students and
interns to assist in creating storage supports and
containers. We believe this is a cost effective
approach that allows conservation staff to focus on
other areas while providing valuable experience to
novice staff.
                                                                   Storage example


Emergency Plan – Cooper-Hewitt has developed a written, comprehensive disaster plan
for each of its facilities that addresses: (1) notification, a list of staff who needs to be
notified in case of any type of emergency; (2) recovery, a list of emergency supplies and
equipment; (3) salvage/post recovery treatment by material; and (4) steps to be taken in
case of fire or water damage.

Collections Preservation Surveys – The Museum is surveying their collections to
systematically examine, document, and evaluate their preservation and condition needs.
These surveys form the basis for the Museum’s collection care plan. At the time of our
audit, the status of the Museum surveys was as follows: Textiles is completed; DPGD is
ongoing; PDDA has just received funding for part of the collection; Wallcoverings is
pending. These surveys provide valuable data on the state and condition of the collections
allowing the Museum to identify their greatest needs.

                                              14

Funding - We found that the conservation staff was proactive and resourceful when
looking for ways to strengthen collections conservation. For example, according to
Cooper-Hewitt management, from FY 2009 to 2011, Cooper-Hewitt received a total of
approximately $3.8 million for conservation: $1.2 million in federal and $2.6 million in
private funds. The federal funds included approximately $760,000 for three years’ salaries
and benefits for three conservator positions, $404,000 in Federal Collections Care and
Preservation funds, and $37,700 in Research Equipment Pool funds. Cooper-Hewitt staff
raised most of the private funds for this period through a major capital campaign to
support the Museum’s renovations and new facility as well as from a Smithsonian Grand
Challenges grant. Conservation management told us that they were able to raise these
funds by looking for funding opportunities tied to planned exhibits or by applying for
grants to address projects of highest priority. They also said that they carefully focused
and prioritized the use of these funds on the collections with the greatest need, which they
identified using their collections surveys.

MANAGEMENT RESPONSE

The Directors of both the Cooper-Hewitt, National Design Museum and OPS provided
formal written comments to our August 10, 2011 draft report. The Directors generally
concurred with most of our audit recommendations. The Director of Cooper-Hewitt
stressed that, at the time of the audit, the Museum was in the middle of renovations and
that three of the four collections were in temporary storage and will be moved to
permanent storage space once renovations are completed. The OPS Director reiterated
that OPS policies and procedures were still in the draft stages for the Newark facility.

Management disagreed with our assertion that incomplete TMS collections data leaves
collection objects vulnerable to loss or theft, diminishes accountability, and reduces the
scholarly value of the objects. Although they acknowledge that TMS records are
incomplete and need to be reconciled, Management stated they have paper records for all
objects that are readily accessible.

Of the 16 objects we could not find, Cooper- Hewitt believes that it is possible that 13 of
these objects may be located during the course of the inventory of the DPGD collection.
They noted that the rate of found objects was within the acceptable range of 4 percent
margin of error in the sample and will strive for 100 percent accountability of their
objects.

Management pointed out that our conclusion regarding the time it would take for them
to update records in TMS and reconcile the information was a misunderstanding of two
different processes. We initially stated that Curators were responsible for reconciling the
data in TMS. Registrars reconcile the data in TMS and Curators catalog objects. They
also clarified that although there are four curatorial departments, they have 8 curators on
staff whose performance plans require minimum cataloguing goals. Taking this into
account, curators are required to update 1,440 object records annually. Management also
highlighted many examples of curators’ other digitization and cataloguing activities
within the past 5 years, bringing their average to about 2,000 objects per year.

Management agreed with our statements that the lack of Collections Managers negatively
impacts the rate at which they can update collection records.


                                             15

Below, we summarize their comments to our recommendations and then offer our
responses to those comments.

Inventory Controls Are Adequate but Could be Improved

Recommendation 1. Management provided a plan outlining what needs to be done to
perform a reconciliation of their records. Depending on staffing and funding the plan
will be complete between 18 months and 3 years.

Recommendation 2. Management stated that there has been a plan in place and
implemented for a number years and that updating TMS records is an on-going activity.
They provided a description of their plan. Management estimated that 50 percent of the
objects will be digitized by the end of 2013, 75 percent by the end of 2016, and the process
completed by the end of 2019.

Physical Security to Safeguard the Collections is Adequate but Could be Improved

Recommendation 3. Once objects are moved to permanent storage, Cooper-Hewitt will
institute a “buddy system” for individuals accessing the combined storage space. A log
book system recording objects entering and leaving the room will be implemented. The
estimated target date for this process is March 2012.

Recommendation 4. Concur. OPS operations responsibilities pertaining to security
reporting and key management at the Newark facility will be finalized and details
published in Operational Manual of the Newark facility. They estimated they will
complete the operations manual by September 30, 2011.

Recommendation 5. Management indicated that due to limited staffing they could not
limit the TMS administrator’s access to the collection until after they have completed
their move of objects to permanent storage. Their estimated target date for completion is
March 2012.

We include the full text of management’s response in Appendix B.

OFFICE OF THE INSPECTOR GENERAL COMMENTS

We are pleased that management generally concurs with our audit recommendations.
We acknowledge that during our audit the Museum was undergoing an inventory and
that the collections were in transition due to renovations at the storage facility in Newark.

Below, we address Cooper-Hewitt’s comments regarding specific statements in the report
and clarify our expectations in addressing the report recommendations.

We disagree with the statement that 13 of the 16 missing objects will be located during the
inventory of DPGD. At the time of the audit, DPGD staff conducted extensive research of
paper and inventory records of the 13 missing objects and noted only 4 objects that may
be identified in the ongoing inventory. The remaining 9 objects have either been assigned
a temporary tracking number or the records were not up-to-date.



                                             16

We appreciate management clarifying the duties of the Curators and Registrar staff
regarding records management, specifically, reconciliation and cataloguing. We
understand that reconciliation of records is the responsibility of the Registrar staff,
whereas curators catalog the object information. During further discussions with
Cooper-Hewitt management regarding their plans for updating TMS, they explained how
they have been proactive in obtaining additional funding to supplement their staff and to
capitalize on their limited resources so that they can focus on updating TMS while the
Museum is closed for renovations. Based on this information, we modified the language
in the report.

Recommendation 1. We recognize that since the collections have not been moved to the
permanent storage space, Cooper-Hewitt management cannot provide a firm timeline for
when they will complete records reconciliation. We do request that Cooper-Hewitt
provide a more detailed plan with definitive dates and milestones once the collection is
moved to the permanent storage space. We will assign a target date of December 15, 2011
for the updated plan.

Recommendation 2. We appreciate Cooper-Hewitt providing their plan to update TMS
records; however, the information provided appears to establish goals towards updating
records rather than a detailed plan. We request that Cooper-Hewitt management provide
a detailed plan specifically addressing what information needs to be updated, who is
responsible, and target dates for completion. We will assign a target date of December 15,
2011 for an updated plan.

Recommendation 3. We consider the proposed plan for internal controls in the
permanent storage space adequate to meet our audit recommendations. However, we ask
that Cooper-Hewitt management periodically review the log book to verify object
locations and retain the log book at least 5 years for recordkeeping purposes. We
consider this recommendation closed.

Recommendation 4. We believe OPS’ plan to incorporate operational responsibilities of
OPS staff into the Operational Manual of the Newark facility responds to our audit
recommendations. We agree with the target date of September 30, 2011 for completion
of the recommendation.

Recommendation 5. We understand that Cooper-Hewitt has limited staffing resources
and that all staff are needed to assist in the move of the collections to permanent storage.
We agree with Cooper-Hewitt’s plan to restrict access to the TMS Administrator once the
move is complete. We will assign a target date of March 30, 2012 for the TMS
Administrator’s restrictions to the collection.

Cooper-Hewitt provided additional editorial comments to various sections of the report,
which we have addressed either in the body of the report or in our response above.

We appreciate the cooperation that Cooper-Hewitt staff provided during the course of
this audit. We recognize that the audit took place during a transition for the Museum,
and that the audit represented a challenge in the midst of Cooper-Hewitt preparing for a
major exhibition, undergoing an inventory, preparing to shut-down for renovations, and
moving their collections from temporary to permanent storage.


                                             17

APPENDIX A. SCOPE AND METHODOLOGY

The objectives of this audit were to assess whether physical security was adequate to
safeguard the collections, inventory controls were in place and working adequately, and
controls over the preservation of collections were adequate.

We reviewed previous audit reports of security, inventory, and preservation control
measures safeguarding the Smithsonian’s collections. We also reviewed Smithsonian
directives and guidance related to collections management; OPS handbooks and guidance
related to security of collections; and reviewed a previous survey that documented and
evaluated the preservation needs and conditions of the Museum’s collections. Further, we
examined external standards, practices, and studies that included the Heritage Index
Report and the American Association of Museum’s Characteristics of Excellence.

Inventory Controls

We evaluated the collections management controls and procedures at the Museum and
performed tests of its records to identify procedural strengths and weaknesses. We
reviewed the adequacy of controls over the collections inventory system. We interviewed
personnel in Cooper-Hewitt’s various curatorial departments: Drawings, Prints, and
Graphic Design; Product Design and Decorative Arts; Textiles; Wallcoverings; and the
Registrar’s Office.

We identified approximately 226,817 objects dedicated to historic and contemporary
design. We scoped out of our audit a review of the Cooper-Hewitt library as well as
objects on loan to other institutions.

Using the TMS collections database, we conducted a spot check of objects based on a
statistical sample of the records from each division. We selected a random sample of 369
objects using a 95 percent confidence level and an expected error and margin of error of 4
percent and 2 percent, respectively. We also conducted a 100 percent review of accessible
priority objects identified for each collecting division. To assess the completeness of the
TMS database, we judgmentally selected 10 objects from each division to verify that
records existed in TMS. We also performed analytical reviews of the data in TMS to
assess record completeness. The results of the sampling could not be projected across the
population so therefore we did not project our results.

Physical Security

Cooper-Hewitt’s facilities are in various stages of redesign and reconstruction. The
security footprint at the Mansion and Miller-Fox townhouses will dramatically differ
from the current configuration. Consequently, we chose to review OPS’ input and
oversight into the redesign of security. We interviewed OPS staff and reviewed physical
security policies and procedures. Since the New York facilities were in transition, we
focused our testing on security at the Newark facility.

To assess physical security controls at Cooper-Hewitt, we toured the collections storage
areas of the Museum’s New Jersey storage facilities. We inspected and tested security
devices to determine whether alarms were working properly. We were accompanied by

                                           A-1 

Cooper-Hewitt, OPS, and representatives from the landlord and security monitoring
company. We also reviewed the security plans and layouts for the Mansion and the
Miller-Fox townhouses.

Preservation

Cooper-Hewitt is currently undergoing major renovations that require the collections to
be placed in temporary storage. Once renovation is complete, all objects will be moved
and re-housed in permanent storage locations. Because the collection is in temporary
storage, we could not assess the permanent storage. Nevertheless, we assessed the
Museum’s preservation efforts.

We reviewed Cooper-Hewitt guidance and practices pertaining to collections
preservation. We held discussions with the Cooper-Hewitt conservation department and
reviewed documentation to determine whether the Museum has adequate controls over
preservation of its collections.

We conducted this performance audit in New York, New Jersey, and Washington, D.C.,
from October 2010 through June 2011, in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence we
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                          A-2 

()   Smithsonian
     Cooper-Hewitt, National Design Museum
     APPENDIX B. CHNDM MANAGEMENrS RESPONSE

     Date: 	                August 24, 2011

     To: 	                  A. Sprightley Ryan, Inspector General

     Cc: 	                  Richard Kurio, Under Secretary for History, Art. and Culture
                            Bruce Kendall, Director, Office of Facilities, Engineering, and Operations
                            William Lynch, Director, Office of Protection Services
                            Alison McNally. Under Secretary for Finance and Administration
                            Scott Miller, Under Secretary for Collections and Interdisciplinary Support
                            William G. Tompkins, National Collections Coordinator, National Collections Program




                                                          --	
                            Caroline Baumann, Associate Dlrector'LHeWltl, National Design Museum

     From: 	                Bill Moggridge, Director   ~i -            ----:.. -           ~        -­
                                                                                                    --....
     Subject: 	             Management Response to 2011 Audit of Collections Stewardship at Cooper-Hewitt.
                            National Design Museum. Number A-ll-{)2

     Attachment: 	 See attached Audit draft with specific comments


     We very much want to thank the Office of the Inspector General's (GIG) staff for auditing our Collections
     Stewardship and for their careful analysis and recommendations for ways to improve our procedures.
     We also appreciate the opportunity to review and comment on the enclosed draft report. We concur
     with most of the findings and have responded below to the specific recommendations.


     Regarding RESULTS IN BRIEF

           • 	 While we concur with most of your recommendations, it is important to note that at the time of
               this audit, CHNDM was in the middle of a major renovation, with the collections separated in
               two different locations. Three of the four collections were in temporary storage in Newark,
               New Jersey and will be moved this fall to a permanent storage space that was being renovated
               during the auditing process.

           • 	 CHNDM is close to completing a comprehensive inventory of its collection, although some
               paper (non-digitizedl collection records have not yet been transferred to TMS and others
               require reconciliation, which cannot happen until the collection is moved to permanent storage.
                While some portion of the Museum's object records are not yet digitized in TMS, it is
               important to note that the paper records for all objects are readily accessible. We therefore,
               do not agree that ~incomplete TMS collections data leaves collections objects vulnerable to
               loss or theft, diminishes accountability, and reduces the scholarly value of the objects. "




     SM ITH SON IAN INSTITUTION 

     CooI"'r · H~wiu . Nl lio,..1DrsiS" MUKum 


     2 East 9 1 Stre<'l 

     New York. NY 101 26·0669 

     212.649.8404 Telephone 

     2 12.849.8401 Fa x 

                                                        B-1
APPENDIX B. CHNDM MANAGEMENTS RESPONSE 



  • 	 Please note that of the 16 objects that could not be found, 13 of the objects were in the
      Drawings, Prints, and Graphic Design (DPGo) department, whose inventory is still in progress
      and was not completed at the time of the audit. This rate of found objects is within the
      acceptable 4% margin of error in the random sample. It is quite feasible that these 13 objects
      will be located by the end of the DPGD inventory. The Mu seum will certainly strive for 100%
      accountability and will aim to improve upon the 4% of objects that could not be found in the
      Auditor's random sample.

  • 	 The one area where we disagree with the Auditor's conclusion is on page 9, third paragraph.
      We think this is due to a misunderstanding of processes and therefore a conflation of two very
      different functions - object reconciliation (discrepancies), which is the responsibility of the
      Registrar and object cataloguing, which is a curatorial responsibility. We would like to correct
      the calculation made in the same paragraph: There are four curatorial departments, but there
      are 8 curators whose performance plans incorporate monthly minimum cataloguing goals.
      This means that 1.440 objects would be updated annually. This figure does not include other
      digitization and cataloguing projects, such as collection exhibitions, collection loans, and
      special grants, which have been obtained by Curatorial Management. For example, over
      10,000 TMS records were updated from 2006·2011, the equivalent of 2,OOO/year. The
      Museum has been proactive in enhancing and updating TMS records both through specific SI
      and non·SI funding and through operational priorities.

  • 	 As pointed out correctly in the Collections Stewardship Audit, the rate at which Cooper·Hewitt
      can enter and update accession records in TMS is negatively impacted by the lack of
      dedicated Collections Managers in three of the four collecting departments.




                                              B- 2
APPENDIX B. CHNDM MANAGEMENT'S RESPONSE 



Response to 2011 Audit of Collections Stewardship at Cooper-Hewitt, National Design
Museum
August 24, 20ll

Recommendation 1: Reconcile the TMS, accession, and object records

Proposed Action : Reconciliation Plan

Target date: The plan is in place as of 8/24/11 and phased target dates for completion are listed
below.

Cooper-Hewitt strives for 100 percent accountability for its collections and recognizes that
reconciliation is a critical and integral part of the inventory process. Because of the rate at which C-H
was required to conduct the inventory in order to align with the impending museum-wide renovation
plan, reconciliation could not be completed at the time of the inventory. Instead, reconciliation will
occur once the Drawings Prints and Graphic Design (DPGDl inventory and the move to permanent
storage in Newark are completed.

The Museum's administration is fully committed to reconciliation, which is a time-consuming process.
Cooper-Hewitt has developed the following plan to reconcile missing objects and objects with
temporary tracking numbers.

   1. 	 The work required to reconcile objects in the collection marked "missing" or labeled with a
        tracking number will be prioritized and addressed accordingly. Numbering discrepancies will
        be organized into different groups. ranging from "easy~ to "difficult." "Easy" reconciliations,
        which are the majority of corrections that need to be made, will be addressed first, followed by
        more difficult issues.

   2. 	 Records that have been marked "duplicate" or "error" records will be addressed. These
        records need to be deleted or corrected, as there are sometimes duplicate records in the
        database for one object. These reconciliations can be confirmed through comparisons with the
        museum's official accession ledger books.

   3. 	 The accession numbers of missing objects will be compared with the museum's official
        accession ledger books. This will help identify objects that have been deaccessioned or object
        numbers that do not exist.

   4. 	 Many objects with tracking numbers have notes concerning associated objects.
        Registrar/curatorial files will be researched and reconciled with the correct accession number.

   5. 	 The remaining objects with tracking numbers will be analyzed and organized by object name
        and/or classification. Record shots of these objects will be taken and compared with existing
        departmental slides and photos as appropriate. The process will be prioritized into groups of
        objects, such as furniture, that are easily identifiable through photographs.

   6. 	 Basic cataloguing will be completed for all objects with temporary tracking numbers in TMS.
        This will improve the overall reconciliation process.



                                                  B- 3
APPENDIX B. CHNDM MANAGEMENTS RESPONSE 


   7. 	 Objects that are reconciled will be approved by curatorial staff and registrars to ensure that
        both departments are satisfied with the conclusion. Issues that qualify as data entry errors will
        be approved by registrars only,

Estimated time for completion:

Dates for completion of reconciliation are contingent on the move to permanent storage in Newark; this
date has not been finalized.

Steps 1-3: If the Museum is able to hire a dedicated staff person, this process is estimated to take six
months. Without a dedicated staff person, it will take an estimated one and a half years.

Steps 3-6: If the Museum is able to hire a dedicated staff person, this process will take an estimated
one to one and a half years. Without a dedicated staff person. it will take an estimated three years.


Recommendation 2: Identify incomplete records in TMS and update them.

Proposed Action : TMS Records Plan

Target date: The plan has been in place and implemented for a number of years and is an on-going
activity. The target is to have digitized records (basic tombstone. confirmed credit line. and image) for
50% 01 the objects by Ihe end 012013, 75% by the end of 2016, and 100% by end of 2019.

    1. 	 The process of converting from paper to digital records (TMS) is lengthy. but fortunately.
         paper records do exist for every object in the collection. One of Cooper·Hewitt's institutional
         goals is to create a digital record for each object by the time the Museum reopens (estimated
         late fall 2013). making a digitized record available both to staff and the public via eMuseum.

    2. 	 Identifying incomplete records in TMS and updating them is already an active part of the
         registrars' and curators' on-going re sponsibilities. The Registrar routinely scrubs data
         incon sistencies, verifies credit lines for objects, enters acquisition information from paper
         records, and resolves numbering issues within the database. In addition to the curators'
         obligation through their work plans to catalogue a minimum of 15 works per month, they are
         responsible for regularly cataloguing new acquisitions. works for on·line exhibitions, collection
         exhibitions and loans, conservation reports, and other projects.

    3. 	 During the next two years while the Museum is closed for renovation, curators and registrars,
         with the assistance of student interns from the Masters Program. will devote considerable time
         to cataloguing, photographing. and digitizing the collection, readying it for re-opening displays.
         presentation didactics, publications (including a collections Handbook), and expanded Web
         site. The goal is to have most of the records updated by the time the Museum reopens. This
         is made possible in large part through funds the Museum's Development and Curatorial
         departments have raised from both SI and non-SI sources.


Recommendation 3: Establish internal controls within combined storage area to ensure individuals
only have access to collections that are part of their official duties.

Proposed Action : Staff Access Plans for Newark Collection Storage

                                                 B-
                                                      "

APPENDIX B. CHNDM MANAGEMENrS RESPONSE


Target date: Plan is complete as of 8/24/11 and will be instituted when the move to permanent
storage is completed (estimated March, 2012,)

    1. 	 The new access plan will take effect once the collection is moved to the permanent storage
        space in the Newark facility.

    2. 	 When the move is complete, access to the collection storage space will be strictly controlled
         to prevent loss and damage.

    3. 	 Museum registrars and conservators will have access to all departments in combined storage,
         since this level of access is part of their official duties.

    4. 	 Museum management will institute a "buddy system~ that will require that authorized staff
         members entering the collections space be accompanied by a second authorized object­
         handling staff member (registrar, conservator, curator, collections manager, or art handler.)
         Thi s two-person requirement will facilitate object removal and help ensure object and staff
         safety while moving the compact shelving system. This procedure also will help prevent
         object theft and reduce the number of unnecessary trips into storage.

    5. 	 A log book system will be instituted for the storage room. The accession numbers of all
         objects entering or leaving the storage room must be entered in the log with the date and
         names of the staff members moving the objects.


Recommendation 4: Ensure that the OPS Operations Division at Cooper-Hewitt obtains and reviews
the security reports and oversees management of keys at the Newark facility.

Proposed Action: Please refer to the Cooper-Hewitt Response by OPS Management which was
submitted separately by William Lynch, Director, Office of Protection Services. Cooper-Hewitt has
reviewed and concurs with the proposed plan.


Recommendation 5: Ensure that Cooper-Hewitt staff member with unrestricted access to the
collections not have the ability to delete TMS records.

Proposed Action : Restricted Access Plan for Collections and Records

Target date: Plan is complete as of 8/24/11 and will be instituted when the move to permanent
storage is completed (estimated March, 2012.)

    1. 	 Due to limited staffing, the TMS Administrator is required to be involved in the physical move
         of the collection into permanent storage at Newark. Once the collection move into the
         permanent storage space is complete, the TMS Administrator's access to collections spaces
         will be removed.

    2. 	 No other Cooper-Hewitt staff have the ability te delete TMS records, therefore, once the
         collection move has been completed, and the TMS administrator no longer has access to
         storage, no one on staff will have unrestricted access to both objects and object records.


                                                B- 5
o         Smithsonian Institution
          Office of Protection Services
                                                                                                            Memo


            Appendix. B OPS Management Response
  Date    August 23,2011

    To    A. Sprightley Ryan
          Inspector General

    Cc Bill Moggridge, Director, Cooper-Hewitt, National Design Museum
          Richard Kurin, Under Secretary for History, Art, and Culture
          Scott Miller, Under Secretary for Collections and Interdisciplinary Support
          Caroline Baumann, Deputy Director, Cooper-Hewitt, National Design Museum
          William G. Tompkins, National Collections Coordinator, National Collections Program
          Bruce
          Aliso)   cNally         Z"
                   ndall, Direetor, Office of Facilities Engineering and Operations
                                   Secretary for Finance and Administration

 From         1~~
          Director

Subject   Cooper Hewitt Response

          We extend our thanks to the Office of the Inspector General (OIG) stafffor their professionalism
          and helpfulness in this complicated review.

          In general, we accept the findings of the audit. However, we feel it is important to provide
          context. As the OIG correctly indicated, the museum and the Office of Protection Services (OPS)
          are still developing policies and procedures for the operations of the Newark facility. Specific
          operational responsibilities such as security report reviewing and key management are still in the
          draft stages as identified in the Draft Crozier Fine Arts, Operational Manual, Cooper-Hewitt,
          National Design Museum (dated June 2, 2011).

          OIG Recommendation 4. Ensure that the OPS Operations Division at Cooper-Hewitt
          obtains and reviews the security reports and oversees management of keys at the Newark
          facility.                                                                                                I.'

          OPS Response: OPS concurs with this recommendation.

          Although the OPS Operations Division is involved in all aspects of security planning for new
          facilities, the primary security responsibility during ~he facility planning, design, and construction
          phases is led by the OPS Technical Security Division (TSD). Now that the Newark facility is
          moving into an operational mode, the primary security responsibility is shifting to OPS
          Operations. OPS Operations' responsibility as they pertain to security report reviewing and key
          management will be finalized and detailed in the final version of the Crozier Fine Arts,
          Operational Manual, Cooper-Hewitt, National Design Museum. The OPS Operations
          responsibility will be consistent, as appropriate, with their responsibilities at other SI owned and
          leased facilities.

          Estimated completion of operations manual: September 30,2011

          Capital Gallery, Suite 4100
          600 Maryland Aven ue SW
          Washington, DC 20024
          MRC504
          202.633.5650 Telephone
          202.633.5617 Fax

                                                        B-6
APPENDIX C. TESTING DETAILS

1. Inventory Sample Summary Table
                                           Spot Check Inventory Sample      Total                                                      %
                         DPGD PDDA Textiles Wallcoverings Registrar
Located                       230           46       57            19     0   352                                                      95%
Not Located                     13           0         0            0     3    16                                                       4%
Deaccessioned                      1         0         0            0     0      1                                                      0%
                 Total        244           46       57            19     3   369
Percent Not located            5%           0%      0%             0%  100%    4%
DPGD‐ Drawings, Prints, and Graphic Design; PDDA‐ Product Design and Decorative Arts 

2. Blank Fields Universe Summary Table
                                DPGD                         PDDA                Textiles           Wallcoverings                  Total

                        % of Total              % of Total             # of    % of Total       # of    % of Total    # of  % of Total 
            # of Blank    DPGD      # of Blank    PDDA                Blank     Textiles       Blank  Wallcoverings  Blank   CHNDM 
    Field     Fields    Collection    Fields    Collection            Fields Collection        Fields   Collection   Fields Collection
Dated          129,076         88%       21,943       60%               19,062       61%            974          8% 171,055        75%
*Title         135,532         92%       33,831       92%               30,436       98%         11,307         95% 211,106        93%
Medium         126,230         86%       14,205       39%               11,888       38%          1,093          9% 153,416        68%
Dimensions     132,013         90%       18,700       51%               21,819       70%          1,607         13% 174,139        77%
Description    124,687         85%       21,994       60%               17,350       56%          2,617         22% 166,648        73%
* Subsequent discussions with Cooper‐Hewitt revealed that Museum staff is not required to use the Title field 

3. Cooper-Hewitt’s Unreconciled TMS Records
            Unreconciled Records in TMS
                (out of  226,817 records)
                             # of Records with 
                            Temporary Tracking 
Division                          Numbers
DPGD                                         7,973
PDDA                                         2,003
Textiles                                        878
Wallcoverings                                   461
           Total      4.9 %                        11,315

                                                                                    C-1 

APPENDIX E.
The following individuals from the Smithsonian Office of the Inspector General contributed to
this report:

Daniel Devlin, Assistant Inspector General for Audits
Brian Lowe, Supervisory Auditor
Teena Propst, Auditor-in-charge
Mark McBride, Auditor
Elsy Woodill, Auditor




                                            E-1 

